CERTIFICATE OF SERVICE
NO. TBD
Mama Jo’s, Inc. d/b/a Berries
Petitioner,
v.
Sparta Insurance Company
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the MAMA
JO’S, INC. D/B/A BERRIES PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct
copies of the same by Fedex 2 day, prepaid for delivery to the following address:
Holly S. Harvey
Hinshaw & Culbertson, LLP
2525 Ponce de Leon Blvd.
Fourth Floor
Coral Gables, FL 33134
(305) 358-7747
hharvey@hinshawlaw.com
Counsel for Sparta Insurance Company

Lucas DeDeus

January 15, 2021
SCP Tracking: Da Silva, II-2525 S.W. 27th Avenue-Cover White

